No. 20-827

 

IN THE
Supreme Court of the Anited States

UNITED STATES,

Petitioner,
v.

ZAYN AL-ABIDIN MUHAMMAD HUSAYN, AKA ABU
ZUBAYDAH, ET AL.,

Respondents.

On. Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF OF COALITION OF HUMAN RIGHTS SCHOLARS
AS AMICUS CURIAE IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,848 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 20, 2021.

 

Colin Casey Hégan
Wilson-Epes Printing Co., Inc.
